UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-2425

Peter George Noe
Petitioner - Appellant
v.
United States of America
Respondent - Appellee
Appeal from U.S. District Court for the District of Minnesota
(0:07-cv-01207-JMR)
JUDGMENT

Before KELLY, WOLLMAN, and STRAS, Circuit Judges.
This appeal comes before the court on appellant’s application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed.
September 01, 2020

—r

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

CASE 0:03-cr-00008-JNE-FLN Document 380 Filed 06/29/20 Page 1 of 8

UNITED STATES DISTRICT COURT
DISTRICT OF MINNESOTA
United States of America,
Plaintiff,
v.

Case No. 03-cr-08 (JNE) (1)
ORDER

Peter George Noe,
Defendant.
A jury found Defendant guilty of conspiring to distribute methamphetamine and
conspiring to distribute marijuana. The Court sentenced him to 480 months’
imprisonment. Defendant appealed. The United States Court of Appeals for the Eighth
Circuit affirmed. United States v. Noe, 411 F.3d 878 (8th Cir. 2005).
In 2007, Defendant filed a Motion to Vacate, Set Aside, or Correct Sentence
Pursuant to 28 U.S.C. § 2255. The Court denied the motion and issued a certificate of
appealability. Defendant appealed. The Eighth Circuit affirmed. Noe v. United States,
601 F.3d 784 (8th Cir. 2010). It has since declined on several occasions to authorize
Defendant to file a successive § 2255 motion.
Citing 18 U.S.C. § 3582(cYD(A3. Defendant recently filed a “motion to amend
sentence.” He also moved for the appointment of counsel. Asserting that Defendant’s
“motion to amend sentence” is an unauthorized second or successive § 2255 motion, the
United States opposed the motion. Defendant subsequently filed another motion for
appointment of counsel. Later, he filed a reply, which raises new arguments for a
reduced sentence, and a motion to amend his reply. For the reasons set forth below, the

1

CASE 0:03-cr-00008-JNE-FLN Document 380 Filed 06/29/20 Page 2 of 8

Court (1) dismisses Defendant’s “motion to amend sentence” as an unauthorized second
or successive § 2255 motion, (2) denies his motions for appointment of counsel,
(3) grants his motion to amend his reply, (4) construes his reply as a motion for a reduced
sentence under § 3582(c)(1)(A), and (5) reserves ruling on his motion for a reduced
sentence under § 3582(c)(1)(A) pending additional briefing.
Except under certain circumstances, “[t]he court may not modify a term of
imprisonment once it has been imposed.” 18 U.S.C. § 3582fcf A defendant may seek a
reduced term of imprisonment by filing a motion “after the defendant has fully exhausted
all administrative rights to appeal a failure of the Bureau of Prisons to bring a motion on
the defendant’s behalf or the lapse of 30 days from the receipt of such a request by the
warden of the defendant’s facility, whichever is earlier.” Id. § 3582(c)(1)(A). If the
court finds that “extraordinary and compelling reasons warrant such a reduction” and
“that such a reduction is consistent with applicable policy statements issued by the
Sentencing Commission,” the court “may reduce the term of imprisonment (and may
impose a term of probation or supervised release with or without conditions that does not
exceed the unserved portion of the original term of imprisonment), after considering the
factors set forth in section 3553(a) to the extent that they are applicable.” Id.
In his “motion to amend sentence,” Defendant asserted that “[sjeveral courts have
found that nothing in the statutory text of 3582(c) nor the sentencing guidelines precludes
a judge from making its own determination of what are ‘extraordinary and compelling’
circumstances warranting a reduction of sentence.” He asserted that such circumstances
are present because his trial attorney sexually assaulted the mother of a co-defendant days
2

CASE 0:03-cr-00008-JNE-FLN Document 380 Filed 06/29/20 Page 3 of 8

before the trial and conspired to sell methamphetamine during the attorney’s
representation of Defendant. Because his trial attorney was indicted after he appealed the
denial of his § 2255 motion, Defendant maintained that he could not present his claims in
his original § 2255 motion. Defendant asserted that the Court “should find that
‘extraordinary and compelling’ reasons exist to reduce [his] sentence under the
compassionate release statute as amended by the First Step Act and order [him] to serve
the remainder of his sentence on home confinement.”
The government opposed Defendant’s motion. It argued that Defendant’s motion
“is not a proper motion for compassionate release.” The government reasoned that
Defendant’s motion, notwithstanding his invocation of § 3582(c)(1)(A), “has nothing to
do with Noe’s medical condition or any other recognized basis for compassionate
release.” The government maintained that Defendant’s “motion actually is a section
2255 petition masquerading as a motion for compassionate release.” The governmentasserted that Defendant’s motion should be denied as an unauthorized second or
successive § 2255 motion: “Because the defendant’s motion has nothing to do with
compassionate release, but rather is in reality a second or successive section 2255 petition
for which Noe has received no pre-authorization from the Eighth Circuit, the motion
should be summarily denied.”
Defendant filed a reply. He asserted that he “is a non-violent drug offender with
no true history of violence” and that the case against him was “greatly exaggerated.”
Acknowledging the govermnent’s recitation of § 3582(c)(l)(A)’s exhaustion
requirement, Defendant asserted that the government did not claim he failed to exhaust
3

CASE 0:03-cr-00008-JNE-FLN Document 380 Filed 06/29/20 Page 4 of 8

his administrative rights, that he does not need to exhaust them “because the claims [he]
has raised deal[] with court issues so the BOP lacks discretion and so for [him] to ask
would be futile,” and that he nevertheless exhausted his administrative rights. Defendant
made numerous complaints about his trial attorney. Defendant asserted that he did not
raise some of his claims in his original § 2255 motion because an individual who
represented him then was not an attorney. Defendant stated that he has made extensive
rehabilitation efforts, that he “has spent the majority of his time in a program or class,”
and that none of the programs is required. He submitted several certificates, a list of
programs he has completed, records of classes that he has taken, and a list of classes for
which he is on a waiting list. Defendant concluded that the Court should grant his motion
and “order resentencing.” He stated that resentencing him under the terms of a plea
bargain he was offered would be fair to all parties involved. i
One week after he submitted his reply, Defendant moved for leave to amend it.
He sought to include as an exhibit to his reply an article that is apparently written by the
defendant in United States v. Marks, 03-CR-6033L, 2020 WL 1908911 (W.D.N.Y. Apr.
20, 2020), appeal docketed, No. 20-1404 (2d Cir. Apr. 23, 2020). The Court grants
Defendant’s motion for leave to amend his reply.

1
In his “motion to amend sentence,” Defendant asserted that the government
offered him a plea bargain and that “[t]he government, on record, told the Court [the
government] did not feel Noe deserved more [than] 20 years.”
4

CASE 0:03-cr-00008-JNE-FLN Document 380 Filed 06/29/20 Page 5 of 8

Motion to amend sentence and motions for appointment of counsel
“A post-conviction filing that fits the description of § 2255 ... is a motion under
§ 2255, and subject to its restrictions, no matter what the pleader says.” Key v. United
States, 786 F.3d 1089. 1091 (8th Cir. 2015) (alteration in original) (quoting Godoski v.
United States, 304 F.3d 761.763 (7th Cir. 2002)). Section 2255 states:
A prisoner in custody under sentence of a court
established by Act of Congress claiming the right to be
released upon the ground that the sentence was imposed in
violation of the Constitution or laws of the United States, or
that the court was without jurisdiction to impose such
sentence, or that the sentence was in excess of the maximum
authorized by law, or is otherwise subject to collateral attack,
may move the court which imposed the sentence to vacate, set
aside or correct the sentence.
28 IJ-S-C- S 2255/aV
Although Defendant’s “motion to amend sentence” is not cast as a § 2255 motion,
it “fits the description of § 2255.” He is in custody under sentence of this Court.
Defendant asserted that his trial attorney sexually assaulted the mother of a co-defendant
days before the trial and engaged in “the same type of crime” as Defendant. Thus, he
seeks release based on claims that he “was deprived of his Sixth Amendment right to
effective representation by conflict-free counsel.” Kiley v. United States, 914 F.3d 1142.
1144 (8th Cir. 2019); see United States v. Lopesierra-Gutierrez, 708 F.3d 193. 200-02
(D.C. Cir. 2013); United States v. Hanoum, 33 F.3d 1128. 1130-32 (9th Cir. 1994).
Defendant’s claims resemble, in part, those he unsuccessfully attempted to present to the
Eighth Circuit in his appeal from the denial of his original § 2255 motion. Noe, 601 F.3d
at 792 (“Finally, Noe asks that we expand the certificate of appealability to consider a

5

CASE 0:03-cr-00008-JNE-FLN Document 380 Filed 06/29/20 Page 6 of 8

variety of other claims, including those of actual innocence and a conflict of interest
arising from Garcia’s sexual relationship with Schultz’s mother.. . . [W]e decline to
expand the certificate.”). The Court concludes that Defendant’s “motion to amend
sentence” is a § 2255 motion. See Godoski, 304 F.3d at 764 (“She is in custody and
seeks relief from a criminal sentence on the ground that it was imposed in violation of the
Constitution because her lawyer rendered ineffective assistance. So her claim arises
under § 2255 . . ..”); cf. United States v. Arojojoye, 806 F. App’x 475. 478 (7th Cir.
2020) (“Arojojoye’s ‘compassionate release’ motion expressly sought a modification of
his prison sentence based on his argument that the disparity between his sentence and his
co-defendant’s was unwarranted. This is a challenge to the length of the prison sentence
that was made on direct appeal and in the first § 2255 motion. And ‘any post-judgment
motion in a criminal proceeding that fits the description of a motion to vacate, set aside,
or correct a sentence set forth in the first paragraph of section 2255 should be treated as a
section 2255 motion.’”); United States v. Handerhan, 789 F. App’x 924. 926 (3d Cir.
2019) (per curiam) (“We note .. . that § 3582(c)(1)(A) provides a mechanism to seek a
reduction in the term of a sentence, not to challenge its validity. The terms of neither the
statute nor its policy statement provide for release on the basis of arguments like
Handerhan’s that were or could have been raised on direct appeal or in a § 2255 motion,
let alone for defendants like Handerhan who already have completed a § 2255 proceeding
and who are subject to the restrictions on filing second or successive § 2255 motions.”).
“[A] second or successive § 2255 motion must now be authorized ‘by a threejudge panel of the court of appeals.’ This rule may not be evaded ‘by simply filing a
6

CASE 0:03-cr-00008-JNE-FLN Document 380 Filed 06/29/20 Page 7 of 8

successive § 2255 motion in the district court.”’ Baranski v. United States, 880 F.3d 951.
955 (8th Cir. 2018) (citation omitted) (quoting 28 U.S.C. § 2244(b)(3)(B) and Boykin v.
United States, 242 F.3d 373 (8th Cir. 2000) (per curiam) (unpublished table decision));
see 28 U.S.C. § 2255HB. Defendant’s “motion to amend sentence” is a second or
successive § 2255 motion. See Arojojoye, 806 F. App’x at 478: cf Banister v. Davis, 140
S. Ct. 1698. 1706 (2020) (“[W]e have considered ‘the implications for habeas practice’ of
allowing a type of filing, to assess whether Congress would have viewed it as
successive.”). The Eighth Circuit did not authorize its filing. Accordingly, the Court
dismisses Defendant’s “motion to amend sentence” as an unauthorized second or
successive § 2255 motion. See United States v. Echerivel, 500 F. App’x 568. 568-69 (8th
Cir. 2013) (per curiam); Boyd v. United States, 304 F.3d 813. 814 (8th Cir. 2002) (per
curiam). The Court declines to issue a certificate of appealability. See United States v.
Lambros, 404 F.3d 1034. 1036-37 (8th Cir. 2005) (per curiam). The Court denies his
motions for appointment of counsel. See Pennsylvania v. Finley, 481 U.S. 551. 556
(1987); McCall v. Benson, 114F.3d754. 756 (8th Cir. 1997).
Defendant’s reply
Defendant’s reply raises arguments for a reduced sentence that were not included
in his “motion to amend sentence.” The Court construes the reply as a motion for a
reduced sentence under 18 IJ.S.C. § 3582(cYl¥AF The Court will issue a briefing
schedule in due course.

7

CASE 0:03-cr-00008-JNE-FLN Document 380 Filed 06/29/20 Page 8 of 8

Conclusion
Based on the files, records, and proceedings herein, and for the reasons stated
above, IT IS ORDERED THAT:
1.

Defendant’s “motion to amend sentence” [Docket No. 359] is DISMISSED
as an unauthorized second or successive motion under 28 IJ.S.C. $ 2255.

2.

A certificate of appealability is DENIED.

3.

Defendant’s motions for appointment of counsel [Docket Nos. 361 & 366]
are DENIED.

4.

Defendant’s motion for leave to amend his reply [Docket No. 373] is
GRANTED. Defendant’s reply is construed as a motion for a reduced
sentence under 18 U.S.C. § 3582(cYlYAf A briefing schedule will be
issued in due course.

LET JUDGMENT BE ENTERED ACCORDINGLY.
Dated: June 26, 2020
s/ Joan N. Ericksen
JOAN N. ERICKSEN
United States District Judge

8

CASE 0:03-cr-00008-JNE-FLN Document 381 Filed 06/30/20 Page 1 of 1

UNITED STATES DISTRICT COURT
District of Minnesota
United States of America,

Case No. CR 03-08 JNE (1)

Plaintiff
JUDGMENT IN A CRIMINAL CASE

v.
Peter George Noe
Defendant.

m

Decision by Court. This action came to trial or hearing before the Court. The issues have
been tried or heard and a decision has been rendered.
IT IS ORDERED THAT:

1. Defendant’s “motion to amend sentence” [Docket No. 359] is DISMISSED as an
unauthorized second or successive motion under 28 U.S.C. § 2255.
2. A certificate of appealability is DENIED.
3. Defendant’s motions for appointment of counsel [Docket Nos. 361 & 366] are
DENIED.
4. Defendant’s motion for leave to amend his reply [Docket No. 373] is GRANTED.
Defendant’s reply is construed as a motion for a reduced sentence under 18 U.S.C. §
3582(c)(1)(A). A briefing schedule will be issued in due course.
Date: June 30, 2020
KATE M. FOGARTY, CLERK
s/Katie Thompson
By: Katie Thompson
Deputy Clerk

